Peace Corps
Office of Inspector General




Semiannual Report to Congress
April 1, 2009 - September 30, 2009
A Peace Corps/Burkina Faso Volunteer teaching French to her students.
                 PEACE CORPS

       Office of Inspector General

                                Vision

To conduct audits, evaluations, and investigations that uphold the
effectiveness, efficiency, and integrity of the Agency in achieving the
goals set forth in the Peace Corps Act that Peace Corps Volunteers
help the people of the countries in which they serve in meeting
their needs for trained manpower, and in helping promote a better
understanding of the American people on the part of the peoples
served, and a better understanding of other peoples on the part of the
American people.




         Semiannual Report to Congress
         April 1, 2009 – September 30, 2009
                                    TABLE OF CONTENTS


     tHighlights from this Report	                                                       1
    	 Message from the Inspector General	                                                1

	 Management and Administration 	                                                        3
 	 Agency Context	                                                                       3
	 OIG Staffing                                   	                                       3

	     Advice and Assistance Provided to the Agency and Others                   	        5
	     Investigation of Inappropriate Computer Use 	                                      5
     	
	     The Inspector General’s Statement on Peace Corps’ Management and 		
	     Performance Challenges 	                                          6
	     Capacity of Peace Corps Business Operations to Support Growth and 		
	     Expansion      	                                                    6
	     Information Technology Management          	                        7
	     Acquisition and Contract Management          	                      7	
	     Property Management         	                                       8
	     Protection of Personally Identifiable Information       	           8                    	

	 Audits                                                                            	    9
	 Overview	                                                                              9
	 Summary of Audits 	                                                                   10
	 Peace Corps Fiscal Year 2009 Financial Statement Audit                	               10
	     Annual Review of Peace Corps’ Information Security Program	                       10
	     Peace Corps/Morocco: Audit	                                                       10
	     Peace Corps/Nicaragua: Audit	                                                     11
	     Peace Corps/Senegal: Follow-up Audit	                                             11
	
	 Program Evaluations	                                                                  13
	 Overview 	                                                                            13
	 Summary of Evaluations 	                                                              14
	 Peace Corps/Belize: Program Evaluation 	                                              14
	     Peace Corps/Ghana: Program Evaluation 	                                           14 	
	     Peace Corps/Jordan: Program Evaluation 	                                          15
	
    	 Investigations            	                                                       17
	     Overview	                                                                         17
	     Ongoing Investigation of a Murdered Volunteer 	                                   18
	     Investigation of Federal Employees’ Compensation Act Recipients       	           18
	     Breach in Medical Files	                                                          19
	     Vehicle Disposal	                                                                 19 	
	     Peer Review	                                                                      20
	   Crimes Against Volunteers	                                                  21
	   Judicial Disposition of Legacy Cases Involving Crimes Against Volunteers	   21
	   Active Case Involving Violent Crimes Against a Volunteer	                   21
	   Title 18 Criminal and Other Investigations       	                          22
	   Active Title 18 Criminal and Other Investigations 	                         22
	   Closed Title 18 Criminal and Other Investigations 	                         22
	   Additional Closed Title 18 Criminal and Other Investigations 	              23

	 Tables 	                                                                      24
	 TABLE 1: List of Reports: Audits and Evaluations	                             24
	 TABLE 2: Reports Issued with Questioned Costs or Funds Put to
	 Better Use 	                                                                  25
	 TABLE 3: Status of Reports Issued by OIG with Costs Questioned 	              26
	 TABLE 4: Status of Reports Issued by OIG with Funds Put to Better Use 	       27
	 TABLE 5: Reports with Recommendations on which Corrective Action
	 has not been completed 	                                                      28
	 TABLE 6: Summary of Investigative Activity 	                                  29
	 TABLE 7: Summary of Hotline and Other Complaints	                             30
	 TABLE 8: References to Reporting Requirements of the Inspector
	 General Act	                                                                  31
the Inspector   General Act 	         36
Highlights from this Report

                       Message from the Inspector General


                        It is my pleasure to present the Peace Corps Office of Inspector
                        General’s (OIG) Semiannual Report to Congress for the
                        period of April 1, 2009 through September 30, 2009. This
                        report is required by the Inspector General Act of 1978, as
                        amended, and covers the work performed by the OIG during
                        the period indicated. OIG activities during this reporting
                        period demonstrate our continued commitment to promote
                        and increase the effectiveness and efficiencies of Peace Corps
                        programs and operations, as well as maintain standards
                        established by the Council of Inspectors General on Integrity
                        and Efficiency (CIGIE) formerly the President’s Council
 on Integrity and Efficiency (PCIE) and the Executive Council on Integrity and
 Efficiency (ECIE) and other federal agencies.

 The Audit Unit has continued its critical work in connection with the Agency
 Financial Statement Audit by assisting the agency in improving the overall
 financial health of the Peace Corps in accordance with the requirements of the
 Federal Managers Financial Integrity Act and the Federal Financial Management
 Improvement Act. During this reporting period, our auditors issued reports on post
 audits in Morocco and Nicaragua, and performed a follow-up audit in Senegal. In
 addition, our auditors conducted field work and/or issued preliminary reports for
 post audits of Burkina Faso, Mongolia, Cape Verde, Tanzania, Ecuador, and Vanuatu,
 and headquarters audits of the Office of Chief Information Officer Budget Process,
 the Office of Acquisition and Contract Management, and the Office of Safety and
 Security. The details concerning these audits will be included in the next reporting
 period.

 During this reporting period, the Evaluation Unit issued reports for program
 evaluations conducted in the Ghana, Jordan, and Belize. In addition, our evaluators
 conducted field work in Turkmenistan and Morocco and assisted the Audit Unit
 in performing work associated with the Office of Safety and Security and Office of
 Acquisition and Contract Management headquarters audits. The details concerning
 these activities will be included in the next reporting period.

 The OIG Investigative Unit continued to coordinate investigative efforts for those
 violent crime cases occurring before the transfer. This reporting period the OIG met



 Peace Corps Office of Inspector General                                    
with representatives from the Federal Bureau of Investigation and the Department
of State Regional Security Office to discuss efforts to reopen the investigation into
the 1998 murder of a Peace Corps Volunteer in Africa. The OIG will continue
to assist the Federal Bureau of Investigation Legal Attaché and the Department
of State Regional Security Officer stationed in Africa in pursuing this initiative
and coordinating investigative activities related to that case. In addition, the
OIG continued to provide coordination for ongoing legacy cases involving crimes
committed against Peace Corps Volunteers.

During this reporting period, the Investigation Unit also conducted investigations
into allegations of fraud, bribery, and other misconduct committed by Peace Corps
employees, contractors, and Volunteers. Included in these are investigations into
allegations of significant misconduct are: a former high ranking agency employee
who may have used his position for personal gain and caused false statements to be
made to the U. S. Embassy and the host country government; the improper release of
confidential information by a Peace Corps employee; theft of Peace Corps property;
and sexual assault. The Investigation Unit also investigated a breach of the security
of personally identifiable information involving approximately 490 applicant medical
files; possible fraud involving Federal Employees’ Compensation Act claims; and
irregularities involved in the overseas disposal of agency-owned vehicles. In addition,
as a member of the Council of Inspectors General on Integrity and Efficiency, the
Unit conducted a peer review of the Library of Congress Office of Inspector General,
Office of Investigations.

As a result of the response to the President’s call to service and as more developing
nations request Peace Corps programs, it is expected that the number of Volunteers
serving will increase significantly over the next few years. The agency will face
a management challenge to maintain the current level of effectiveness without
additional resources to fund the accompanying increase in Volunteer support
functions and operations. The OIG will look for ways through its audit and
evaluation process, to assist the agency to ensure its programs are implemented
effectively and efficiently and that Volunteers and staff are adequately supported.




	                                    Kathy A. Buller
	                                    Inspector General	




               Semiannual Report to Congress    April 1, 2009 - September 30, 2009
 Management and
Management  and A
                Administration
                 dministration


                                         Agency Context

  At the beginning of FY 2010, 7,671 Peace Corps Volunteers and trainees were
  serving in 74 countries at 68 posts. This total includes 339 Volunteers and trainees
  funded by the President’s Emergency Plan for AIDS Relief working on HIV/AIDS
  projects in 25 countries.

  The Volunteers and their programs are supported by 853 American direct hire
  staff: 190 overseas; 114 in the regional recruiting offices; and the remaining 549 in
  headquarters. Approximately 2,000 locally hired personnel complete post staffing.
  The Peace Corps also has corporate contracts domestically and overseas, principally
  for guard services and training, and hires expert consultants, largely for training and
  financial management.

                                               OIG Staffing

  In May 2009, Joaquin Ferrao joined the OIG as Deputy Inspector General/Legal
  Counsel. Prior to Peace Corps, Joaquin was Senior Policy Advisor to the Under
  Secretary of State for Democracy and Global Affairs at the U.S. Department of
  State where his duties included representing the U.S. before the Community of
  Democracies process. From 2002 to 2005, Joaquin was Deputy Political Counselor
  and later Senior Advisor to the Assistant Secretary for the Bureau for Western
  Hemisphere Affairs for the U.S. Mission to the Organization of American States.
  From 1998 to 2002, Joaquin was an Attorney with the Office of Inspector General,
  and later an Attorney at the Office of the General Counsel at the U.S. Agency
  for International Development. Joaquin received his J.D. with honors from the
  University of Florida, Fredric G. Levin College of Law and a B.A. degree with a
  major in International Relations from Florida International University graduating
  cum laude in 1994.

  Jeff Reichert joined the OIG in August 2009, after a law enforcement career of over
  20 years with the Prince George’s County Police Department in Maryland. Jeff has
  conducted investigations into homicides, sexual assaults, and employee misconduct.
  Jeff graduated from Edinboro University with a B.A. in Criminal Justice.

  Joe Wagner joined the OIG in August 2009, and has 18 years of audit experience
  performing program, financial, contract, acquisition and investigative audits. Joe
  has conducted audits throughout the U.S. and in overseas locations. Joe graduated
  high school at the International School, Bangkok, Thailand, and has a Bachelor of
  Business Administration from the University of Memphis.


     Peace Corps Office of Inspector General                                      
Criminal Research Specialist Roberta Raftovich transferred from the Peace Corps/
OIG in April 2009, to a position with the Securities Exchange Commission/OIG.
Assistant Inspector General for Evaluation Shelley Elbert transferred from the Peace
Corps/OIG in May 2009, to a position with the Department of Homeland Security/
OIG. Auditor Elizabeth Palmer transferred from the Peace Corps/OIG in June
2009, to a position with the Department of Justice/OIG.

At the end of this reporting period, the position of Assistant Inspector General for
Evaluation is vacant. In addition, two criminal investigator positions and one auditor
position remain vacant.




              Semiannual Report to Congress   April 1, 2009 - September 30, 2009
 Adviceand
Advice      Assistance PProvided
        and Assistance   rovided

  to
   tothe
      the Agency  and O
          Agency and  Others
                        thers

  During this reporting period, we provided advice to management on a number
  of serious issues that were brought to our attention. This advice was conveyed in
  written form and through briefings and meetings with the Director of the agency and
  other senior-level Peace Corps officials.

                    Investigations of Inappropriate Computer Use

  In September 2009, we informed the new agency Director of our investigative
  efforts to deter unauthorized and inappropriate computer use by agency employees
  and contractors. As noted in a prior Semiannual Report to Congress, over the past
  two years the OIG has conducted several investigations at overseas posts where
  work stations had accessed and/or were linked to pornographic websites and sex
  chat rooms. While conducting these investigations, the OIG has seized hard-
  drives and interviewed U.S. direct hire and host country national staff to verify
  misconduct associated with computer usage. We coordinated our efforts with the
  U.S. Department of State Diplomatic Security Service and the National Center
  for Missing and Exploited Children and confirmed that several Peace Corps-issued
  hard drives contained sexually explicit material. These investigations resulted in
  16 personal services contracts not being renewed and/or staff members received
  disciplinary action(s).

  Our investigations affirmed troubling trends associated with the loss of productivity
  resulting from unauthorized and inappropriate computer use by agency employees
  and contractors. These patterns emerged despite new employee orientation and
  annual information security awareness training that informs users that visiting
  pornographic and sexually explicit websites is not permitted on government
  computers. This activity appears to continue with sufficient frequency to warrant
  additional action.

  With only a few investigative staff members, the OIG has limited resources to
  monitor computer and internet activity at headquarters and 74 overseas posts in 68
  countries. We advised management to consider the following:
       •    conduct analyses of the productivity and cost impact associated with
            unauthorized internet browsing activities;
       •    devote resources to block or limit user access to unauthorized websites;
       •    continue to impose disciplinary actions, including dismissal or contract
            termination where warranted, for unauthorized use of agency computers and
            information systems

  The OIG will continue to investigate allegations of inappropriate and unlawful use of
  government computers and refer the results to the agency for appropriate action.
  Peace Corps Office of Inspector General                                   
     The Inspector General’s Statement
    on the Peace Corps’ Management and
               Performance Challenges
As required by the Reports Consolidation Act of 2000 and Office of Management
and Budget guidance, I am pleased to submit the following summarizing what
I consider to be the most serious management and performance challenges facing
the Peace Corps. This statement has been compiled based on Office of Inspector
General (OIG) audits, investigations, evaluations, and the general knowledge of
the agency’s operations.
………………………………………………………………………………………
Challenge Capacity of Peace Corps Business Operations to Support
          Growth and Expansion

As a result of the response to the President’s “call to service,” and as more developing
nations request Peace Corps programs it is anticipated the agency will experience
significant growth. Such growth will necessitate increased funding levels. Efficient
and effective management of the resulting rapid growth and larger budgets will
present challenges for agency management.

Peace Corps’ current business operations appear to be sufficient for supporting
present levels. However, without enhancements to its business processes it will be
difficult for the agency to continue providing the same level of Volunteer support
based on projected growth. Significant increases in the number of Peace Corps
Volunteers will have a major impact across overall operations and cause considerable
stress in service delivery capabilities of several key business operations. Operations
most impacted include:
•	       Volunteer Recruitment & Selection
•	       Volunteer Support Services
•	       Financial Management
•	       Information Technology
•	       Acquisitions & Contracting
•	       Safety & Security
•	       Human Resources
•	       Administrative Services

As a result, we believe it is a management challenge for the Peace Corps to ensure
that business operations can respond with an effective level of support in an era of
increased volunteerism and resulting rapid expansion of agency programs and/or
operations around the world.

Challenge	 Information Technology Management

Peace Corps has not established an adequate information technology (IT) strategy
and an effective IT governance process as required by the Clinger-Cohen Act of 1996
and OMB Circular A-130. Also, overall budgeting for IT resources is not effective
               Semiannual Report to Congress   April 1, 2009 - September 30, 2009
and has placed the agency at risk. The most significant risks are associated with
ensuring that: limited resources will be put to use where most needed; funds spent
on contracts consistently meet requirements; and the IT infrastructure effectively
supports the Peace Corps mission. Achieving full compliance with federal laws and
regulations that apply to managing the Peace Corps IT infrastructure and improving
the IT budget process are critical management challenges.

Management continues to make progress in strengthening the Peace Corps’ IT
architecture and security management. However, there are some issues regarding
information security and risk management of system architecture that remain a
management challenge. Further, several issues disclosed in prior year audits relating
to compliance with the Federal Information Security Management Act have not been
fully remediated. The most significant issues follow:

•   Five of twelve of the agency’s information systems have not received final
    certifications and accreditations indicating that they are acceptable to use
•   Processes for systems configuration management have not been fully or
    consistently implemented
•   Contingency plans were not in place for four of twelve information systems
    and only one of the eight systems having a contingency plan had been tested in
    accordance with National Institute of Standards and Technology policy to ensure
    full recovery following a major disruption of service

Challenge		Acquisitions and Contract Management

Operations relating to Peace Corps’ acquisitions and contracting are worldwide
in scope adding complexities that are not common to most federal agencies.
In FY 2009 the agency expended nearly $80 million for goods and services,
or approximately 23 percent of the Peace Corps budget. This figure includes
expenditures of about $48.7 million for personal services contracts and just over
$31 million for other contracts. Recent White House initiatives implemented
through OMB have directed federal agencies to undertake a number of initiatives
relating to acquisitions and contract management. One of these initiatives requires
agencies to develop a plan to save 3.5 percent of baseline contract spending in FY
2010, and an additional 3.5 percent in FY 2011. It is unclear at the present time
whether agencies not subject to the Chief Financial Officers Act will be required to
implement all of the OMB initiatives. However, if the requirement for cost savings
of 7 percent through the end of FY 2011 is imposed on the Peace Corps it would
pose a significant challenge to the agency since personal services contracts currently
represent over 60 percent of overall contract expenditures. Also, as a part of the
new initiatives, OMB has directed that federal agencies make improvements in
their contracting processes, including reducing the use of high risk contracts such as
noncompetitive and cost-reimbursement.

Recent OIG audit work has disclosed that although progress is being made to
improve the agency’s overall contracting processes; resourcing issues have impacted

Peace Corps Office of Inspector General                                      
the ability to quickly implement plans for strengthening contract surveillance;
compliance with applicable laws and regulations; and customer support services.
Additional requirements imposed upon the Peace Corps’ acquisition workforce could
potentially challenge already strained resources.

Challenge	 Property Management

The FY 2009 (3rd Quarter) Balance Sheet indicates the Peace Corps’ general
property, plant, and equipment (PP&E) has a net book value of about $31.5 million.
Peace Corps’ general PP&E includes vehicles, computer equipment, office furniture,
software, other equipment, etc. Property management involves organizational
activities related to acquiring, tracking, controlling, and disposing these items.
Audits and investigations performed over the last 12-months have disclosed that not
all Peace Corps property is adequately safeguarded or disposed in accordance with
applicable federal and Peace Corps requirements. Significant problems have been
noted with accountability of certain assets, managing excess property, and following
policies and procedures related to property disposal. For example, during FY 2009
external auditors reported that the agency was not able to accurately track assignment
of laptop computers. Other examples of deficient property management includes not
disposing of property identified as excess to needs in a timely manner and failing to
follow applicable guidance when disposing property through public sales. Ineffective
property management unnecessarily exposes the agency to risks associated with
fraud, waste, and abuse and drives operating costs up. As a result, improving overall
property management and strengthening the system for internal control related to
property is a management challenge.

Challenge	 Protection of Personally Identifiable Information

The Peace Corps routinely receives, processes, and maintains significant amounts of
Personally Identifiable Information (PII). PII includes information that can be used
to distinguish or trace an individual’s identity, such as name, Social Security Number,
or biometric records. Such information can be used to link to other data such as
bank accounts and other financial or personal information that can assist perpetrators
in committing crimes associated with identity theft. During FY 2009 a number
of cases of PII security breaches involving social security numbers, medical data,
and other PII data have been brought to our investigators’ attention. For example,
an unsecured container with over 500 pieces of sensitive information, including
individual medical records and other PII data, was left unattended for about
three days in a public area. Other instances include recurring problems involving
various breaches in personal medical data. Investigations into these security lapses
disclosed numerous internal control weaknesses and failure to follow federal laws and
regulations and Peace Corps policy on protecting PII. As a result it is a challenge
for management to improve its system for internal control over PII and ensure Peace
Corps personnel consistently comply with applicable federal and agency guidance.




              Semiannual Report to Congress   April 1, 2009 - September 30, 2009
                                          Audits

                                           Overview

The Peace Corps’ OIG Audit Unit focuses primarily on the agency’s programs,
financial and administrative operations, and personnel that support the Peace Corps’
mission and its Volunteers serving around the world. We accomplish this through
audits of the agency’s field activities at overseas posts, and its administrative support
functions at headquarters and domestic recruiting offices. Although certain audits
may require a team effort, most audit engagements are conducted by a single auditor
under the direction and guidance of the Assistant Inspector General for Audit. OIG
also utilizes contracts with independent auditing firms and engages individual experts
for some highly technical audits. Further, we are charged with the responsibility of
assisting with OIG investigations requiring audit expertise and specific skill sets.

Our audit work typically examines agency operational effectiveness and financial
management. Audit objectives are designed to assess whether good management
practices are being followed, assets are adequately safeguarded, managers are properly
accounting for assigned resources, and operations are being carried out in compliance
with federal laws, regulations, and applicable Peace Corps policies. The audits are
performed in accordance with generally accepted government auditing standards
issued by the Comptroller General of the United States.

Additionally, auditors may assist with the review of allegations of fraud, waste, abuse,
and mismanagement related to Peace Corps programs and operations. Allegations
may include potential improper charging of the government for goods and services
that are either not provided or provided at inflated rates. Audit assignments involve
extensive problem solving, and planning and coordination, often at overseas locations
and covering a large variety of work processes carried out in several interrelated
organizations.

The Accountability of Tax Dollars Act of 2002 mandates that the Peace Corps
subject their financial statements for an annual audit. OIG oversees and serves as the
technical representative for contracts with an independent public accounting (IPA)
firm to perform the annual audit of the agency’s financial statements. To fulfill our
responsibilities, we monitor the IPA’s work to ensure that it is of acceptable quality,
in compliance with federal law and applicable industry standards, and is completed
within the Office of Management and Budget (OMB) established milestones. We are
also responsible for meeting specific requirements set out by the Federal Information
Security Management Act (FISMA). These requirements include performing reviews
of the Peace Corps’ information systems security program and reporting related
selected data to the OMB annually.



Peace Corps Office of Inspector General                                      
                                Summary of audits

        Peace Corps Fiscal Year 2009 Financial Statement Audit

During this reporting period we engaged an independent public accounting firm to
conduct the audit of the Peace Corps’ fiscal year 2009 financial statements. This audit
is required by the Accountability of Tax Dollars Act of 2002. As of September 30,
2009, the audit was ongoing. We intend to issue the related independent auditor’s
reports by the OMB-mandated reporting date of November 16, 2009. Details
regarding the audit will be included in the next Semiannual Report.

     Annual Review of Peace Corps’ Information Security Program

The Federal Information Security Management Act requires federal agencies to
establish security protections and a program to secure their information systems
from unauthorized access, use, disclosure, modification, and other harmful impacts.
This is governed through National Institute of Standards and Technology guidelines.
In addition, FISMA requires that OIGs review their agency’s information security
program and report results to OMB annually on October 1. However, OMB has
extended this year’s reporting deadline to November 18, 2009, due to significant
changes impacting the method used for reporting. To meet this requirement, OMB
has developed an online data collection system for FISMA reporting from federal
agencies and their respective OIGs.

The data reported to OMB is designed to measure the progress of developing and
institutionalizing federal agencies information security program. Preliminary results
of the OIG review of the Peace Corps’ fiscal year 2009 information security program
indicate that the agency is making progress in becoming fully compliant with
FISMA. Comments on final review results will be covered in the next Semiannual
Report.

                                 PC/Morocco: Audit

We issued our report on the audit of Peace Corps/Morocco on July 13, 2009. The
Peace Corps/Morocco program was established in 1963. Since the first Volunteers
arrived, over 3,800 Volunteers have served in Morocco. Currently there are
192 Volunteers working in four projects: environment, health, small business
development, and youth development.

We found that Peace Corps/Morocco’s financial and administrative operations were
in compliance with agency policy and federal regulations. In addition, internal
control over post operations were in place and effective. As a result, we did not make
any recommendations in this report.




10               Semiannual Report to Congress   April 1, 2009 - September 30, 2009
                                     PC/Nicaragua: Audit

The Peace Corps began its program in Nicaragua in 1968. However, operations
were suspended in 1979. In May 1991, Peace Corps returned to Nicaragua. At the
time of our visit, 169 Volunteers were working in the areas of public health, small
business, education, environment, and agriculture. The country director has worked
for Peace Corps/Nicaragua for over five years and the administrative officer for over
eight years.

During the audit, we found that post’s compliance with Peace Corps policies and
federal regulations in some areas required improvement and internal control over
certain operations were not effective.

In the area of administrative operations, we found that the post did not sufficiently
document the receipt of goods and services and did not properly safeguard the
imprest fund. We also found that personal services contract folders were incomplete
and some staff did not sign the intelligence background information certification. In
addition, the post did not ensure supervisory review of time and attendance records.

In the area of internal controls, we found that the post lacked separation of
duties between maintaining property inventories and conducting the inventory
count as well as failed to dispose of excess property timely. Further, the post did
not implement an effective process for tracking and taking inventory of medical
supplies. Finally, the post was deficient in its ability to ensure that post vehicles were
adequately managed.

In the area of Volunteer support, we found that the post did not conduct a market
basket survey in fiscal years 2007 and 2008 to verify the accuracy of Volunteer
allowances surveys.

Management concurred with 17 recommendations. At the end of the reporting
period, two recommendations remain open.

                               PC/Senegal Follow-up Audit

During the period April 27 – May 6, 2009, we conducted a follow-up audit to
verify the status of the 21 audit recommendations included in our September 2007
report. Management concurred with 18 of the 21 audit recommendations in the
2007 audit report, partially concurred with two recommendations, and did not
concur with one recommendation. Based on management’s responses, we closed
three recommendations with the report’s issuance. Eighteen audit recommendations
were left open pending action to be taken. Subsequent to our visit, the post took the
required action and we closed them.




Peace Corps Office of Inspector General                                        11
During our follow-up audit, we verified that appropriate action had been taken on
14 of the 21 audit recommendations. We determined that seven recommendations
required additional action, and we reopened them. Following our visit, the post
provided us with documentation showing that it had subsequently taken the
appropriate additional actions on six recommendations, and accordingly, we have
closed them. The recommendation related to the completeness of personal services
contractor files remains open pending the completion of the required action and
confirmation from the chief compliance officer. We found several personal services
contractor files with missing, incomplete information or inaccurate, including
missing security updates, inaccurate contracts, and missing personnel appraisals.

At the end of the reporting period, one recommendation remains open.




12              Semiannual Report to Congress   April 1, 2009 - September 30, 2009
          Program Evaluations

                                          Overview

The Evaluation Unit provides the agency with independent evaluations of
management and operations of the Peace Corps, including overseas posts and
domestic offices. The Evaluation Unit identifies best management practices and
recommends program improvements and means by which to comply with Peace
Corps policies and federal regulations. Our focus in fiscal year 2009 has been to
provide management with a comprehensive assessment of how overseas posts and
programs are functioning. Evaluations are conducted under the direction and
guidance of the Assistant Inspector General for Evaluation and in accordance with
the Quality Standards for Inspections published by the Council of the Inspectors
General on Integrity and Efficiency.

Each post evaluation includes interviews, review of relevant documents, physical
observations, and analysis by the evaluation team. The evaluation team interviews
headquarters and post staff, key officials, and Volunteers. We visit a stratified
judgmental sample of 20% of currently serving Volunteers based on their length
of service, site location, project focus, gender, age, marital status, and ethnicity.
Evaluators conduct Volunteer interviews at the Volunteers’ homes and inspect the
homes using post-defined criteria. The period of review for a post evaluation is one
full Volunteer cycle (typically 27 months). For post evaluations, we use the following
researchable questions to guide our work:

    •	 To what extent has the post developed and implemented programs intended
       to increase the capacity of host country communities to meet their own
       technical needs?
    •	 To what extent has the post implemented programs to promote cross-cultural
       understanding?
    •	 To what extent does training provide Volunteers the necessary knowledge,
       skills, and attitudes to integrate into the community and perform their jobs?
    •	 To what extent has the post provided adequate support and oversight to
       Volunteers?
    •	 To what extent are post resources and agency support and oversight effectively
       aligned with the post’s mission and program, and agency priorities?
    •	 Is the post able to adequately administer the President’s Emergency Plan for
       AIDS Relief (PEPFAR) program, support Volunteers, and meet its PEPFAR
       objectives? (Only applicable to posts receiving PEPFAR funds.)

The findings and recommendations provided in our evaluation reports are
reviewed by agency stakeholders affected by the review to ensure: (1) that our




Peace Corps Office of Inspector General                                   13
recommendations are feasible and (2) that our reports are useful to the agency in its
effort to strengthen internal controls and correct deficiencies.

                      Summary of Program Evaluations

                  Peace Corps/Belize: Program Evaluation
 
We issued our program evaluation of Peace Corps/Belize August 10, 2009. Nearly
1,800 Volunteers have served in Belize since the program began in 1962. At the time
of our evaluation, there were 67 Volunteers serving in the following four projects:
youth development, education, business and organizational management, and
Healthy Communities.
 
The OIG evaluation determined that the post has an experienced and dedicated staff
and strong and effective leadership. The Peace Corps has an excellent reputation in
Belize and the post has developed positive working relationships with a large number
of project partners. PC/Belize has established effective operational systems related to
programming and training and most aspects of Volunteer support.

However, we also identified the following areas that inhibit the efficiency and
effectiveness of PC/Belize:

     •	 Fewer than half the Volunteers interviewed for this evaluation were working
        successfully with their assigned counterparts. In large measure, this was the
        result of a gap between Volunteer and counterpart expectations.
     •	 The community integration of many rural Volunteers was limited by their
        poor local language skills.
     •	 Volunteers reported dissatisfaction with the quality of site visits and with the
        quality of biannual report feedback.
     •	 The medical support of Volunteers has been negatively impacted by the Peace
        Corps Medical Officer’s obligation to conduct training sessions.

Management concurred with all 15 recommendations. At the end of the reporting
period, seven recommendations remain open.


                  Peace Corps/Ghana: Program Evaluation

We issued our program evaluation of Peace Corps/Ghana July 29, 2009. Ghana
was the first nation to accept Peace Corps Volunteers and will celebrate its fiftieth
anniversary in 2011. At the time of our review, there were 134 Volunteers serving
in four projects: education, environment; health/water and sanitation; and small
enterprise development.

The OIG evaluation determined that PC/Ghana has a knowledgeable and competent
staff. The post has effective working relationships with project partners and Peace

14                Semiannual Report to Congress   April 1, 2009 - September 30, 2009
Corps headquarters and has established effective operational systems related to
programming.

Despite these accomplishments, the OIG noted the following areas that need
improvement:

    •	   Although most Volunteers reported that they were satisfied with their site
         placement, the evaluation identified concerns that could be solved with
         more thorough, in-person site development, including verifying that housing
         is ready for Volunteers when they arrive at their site and identifying the
         appropriate language for a Volunteer to learn during training.
    •	   Language training and the in-service training curriculum could be adapted to
         better meet Volunteers’ needs.
    •	   Although Volunteers stated that they were well-supported on average, support
         by their program manager varied and alternate means of support were
         either undefined, not being implemented, or were not well understood by
         Volunteers.
    •	   The post provided conflicting priorities to Peace Corps Volunteer Leaders did
         not ensure that they had substantative involvement with a Volunteer program
         or activity with an assigned counterpart, as required by Peace Corps policy.
    •	   Volunteers were not regularly submitting performance reports.

Management concurred with all 17 recommendations. At the end of this reporting
period all 17 are closed.

                     Peace Corps/Jordan: Program Evaluation

We issued our program evaluation report of Peace Corps/Jordan September 10, 2009.
The first group of Volunteers to Jordan arrived in 1997 to assist with community
development projects. At the onset of our review, the post had 56 Volunteers serving
in the following three projects: English language teaching, special education, and
youth development.

The OIG evaluation determined that PC/Jordan has a competent staff working in
a politically-charged cultural context. The post has had difficulty identifying and
retaining appropriate counterparts but Volunteers reported that they were generally
satisfied with site placements. PC/Jordan works well with host country stakeholders
and operates effectively in programming, training, and most aspects of Volunteer
support. We found that the safety and security of Volunteers was integrated into all
aspects of the post’s operations.

Our evaluation also found areas to improve the effectiveness of the post’s operations,
and we made recommendations addressing the following concerns reported to us:
    •	 Project partners believe that they would be better served by Volunteers with
       more relevant expertise and experience.


Peace Corps Office of Inspector General                                     15
     •	 The post has the second highest early termination rate in the Europe,
        Mediterrean, and Asia region – likely influenced by cultural integration issues
        and unclear Volunteer expectations of support.
     •	 In interviews, Volunteers cited technical training deficiencies in all sectors.
     •	 Agency budget cuts have had a negative impact on the post’s programming,
        training, and Volunteer support activities.

Management concurred with all 14 recommendations. At the end of the reporting
period, nine recommendations remain open.




16               Semiannual Report to Congress   April 1, 2009 - September 30, 2009
                        Investigations

                                               Overview

The Office of Inspector General is authorized to conduct investigations into waste,
fraud, and abuse in Peace Corps programs and operations both domestically and
overseas. In the performance of this mandate, the OIG investigates both criminal
allegations and administrative misconduct such as violations of Peace Corps and U.S.
government standards of conduct. The OIG develops policies to respond to criminal
and administrative allegations and to coordinate and supervise such investigations.
The OIG often works with other offices within the Peace Corps and/or law
enforcement officials from other agencies. These include Immigration and Customs
Enforcement, the State Department’s Office of Diplomatic Security Services, the
Federal Bureau of Investigation (FBI), the Department of Labor, and the Department
of Justice, as appropriate.

Allegations are forwarded to the OIG through various means, including: OIG audits
and evaluations, hotline complaints, Volunteers, trainees, staff, other federal entities,
as well as the general public.

Prior to September 1, 2008, the Investigation Unit managed and coordinated
the agency’s participation in the investigation and prosecution process of cases
involving violent crimes committed against Peace Corps Volunteers. This function
was transferred to the Peace Corps Office of Safety and Security; however, the
OIG has retained oversight of cases in which the OIG was involved prior to the
transfer. In addition, because the OIG has responsibility to investigate allegations
of wrongdoing by Peace Corps employees, contractors, and Volunteers, the OIG
continues its jurisdiction of violent crimes committed by an employee, contractor, or
Volunteer. As of September 30, 2009, the OIG closed 48 preliminary inquiries and
investigations involving violent crimes. The following table demonstrates the areas of
our closed violent crime cases.

               Type of Investigation                                 Number of Cases*
     Aggrevated Assault                                                         2
     Attampted Rape                                                             2
     Burglary with Volunteer Present                                            4
     Intimidation                                                              14
     Major and Other Physical Assault                                           6
     Major Sexual Assault                                                       1
     PROTECT Act                                                                1
     Rape                                                                       6
     Robbery                                                                   12
    * Cases opened prior to the transfer of violent crimes to Office of Safety and Security.
Peace Corps Office of Inspector General                                                        17
OIG criminal investigators continue to maintain firearm qualification proficiency
and have successfully completed quarterly the practical pistol qualification course
at the Federal Law Enforcement Training Center/Cheltenham. Additionally, OIG
criminal investigators have participated in financial investigations familiarization
training sponsored by the Third Circuit U.S. Attorney; grant fraud training
sponsored by the National Science Foundation; workers compensation program
training sponsored by the U.S. Department of Labor; emergency security
preparedness training provided by the Department of Homeland Security; and Peace
Corps Computer Security Awareness Training.

            Ongoing Investigation of a Murdered Volunteer

The investigation of a Peace Corps Volunteer murdered in West Africa in1998
is ongoing. During this reporting period, U.S. law enforcement officials met
at the Peace Corps headquarters office to brief the incoming Federal Bureau of
Investigations (FBI) Legal Attache and Regional Security Officer (RSO) on the
case. In September 2009, the FBI Legal Attache and RSO met with the lawyer
representing Peace Corps interests, the former lead prosecutor for the case, and
one of the lead investigators on the case. All the meetings were described as being
productive. The U.S. Ambassador is scheduled to meet with the new president of
the country in November 2009. The RSO has scheduled several meetings with the
Ambassador to update her on the murder investigation, which will be a topic of
discussion with the incoming president.

 Investigation of Federal Employees’ Compensation Act Recipients

The Investigation Unit monitors Federal Employees’ Compensation Act (FECA)
claims. At the end of FY 2009, the Peace Corps had approximately 1,386 open
FECA claims. The agency spent roughly $12.2 million on claims to individuals who
were injured or became ill on the job or during their Peace Corps service.

During this reporting period, we visited Office of Workers’ Compensation Program
(OWCP) district offices in New York, Philadelphia, Cleveland, and Denver with
personnel from the Office of Medical Services (OMS). We reviewed the files of
approximately 50 FECA claimants for updated information. We also examined
recipient medical records and reports for employment implications to identify
possible changes. During these reviews, we identified questionable claims at each
district office that will require further review/investigation. Of special interest
were claims with high compensation benefits and comparatively low medical bills.
Criminal investigators visited 15 recipients for alive and wellness checks and to
verify their work status. No direct fraud was identified during the visits to OWCP
district offices, but information was developed for follow-up consultations. We also
performed vital statistic queries on 59 individuals receiving FECA benefits. Four
individuals had died and we verified that their status had been properly reported to
OWCP and their FECA benefits had ceased.


18              Semiannual Report to Congress   April 1, 2009 - September 30, 2009
                                   Breach in Medical Files

During this reporting period, the OIG received information about a breach of
security concerning personal identifiable information involving hundreds of
Volunteer medical folders. The OIG investigation disclosed that a contracted
facilities clerk took an unlocked disposal bin filled with medical records from Office
of Medical sevices (OMS) to an unsecured area of the parking garage. Three days
later, an employee discovered the unlocked disposal bin in a handicapped parking
space just outside of the secured locked storage area in the garage.

The OIG subsequently inventoried the bin with the OMS Medical Records Manager.
The inventory disclosed that the disposal bin had over 490 Peace Corps applicant
medical files. These files included the applicant’s name, social security number,
address, date of birth, dental records, lab reports, and medical questionnaires.
Also included in the bin were the names and date of births of 55 Volunteers. The
investigation was not able to determine if any medical records were removed from
the disposal bin. However, it disclosed numerous internal control vulnerabilities that
contributed to this breach in confidential medical records and personal identifiable
information.

For example:
•   Facilities Management provided OMS with disposal bins that can not be locked.
•   OMS and Facilities Management entrusted custody of sensitive medical records
    to staff who do not have authorization to access these records.
•   The email communication used to request the pick-up and transfer of the medical
    records did not indicate the sensitivity level of the material or specifically instruct
    the mover(s) where the container should be taken, i.e., inside the locked storage
    area.
•   Facility Management provided inadequate oversight of the staff who moved
    the disposal bin. From the information acquired during the investigation, it
    appears that the container sat in an unprotected area of the parking garage for
    approximately three days.
•   Personnel who no longer work at Peace Corps were listed as having “authorized
    unaccompanied access” to the storage cages in the parking garage.
•   Keys to access these storage areas were kept in a drawer in an unsecured area on
    the second floor.

                                          Vehicle Disposal

The Investigation Unit has an ongoing investigation into potential fraud associated
with Peace Corps vehicles at overseas posts sold below market value. Based upon
the investigation of vehicle disposal practices at two posts, the Investigation Unit
analyzed Peace Corps vehicle sales worldwide and identified over 70 vehicles that
appear to have been sold below market value.



Peace Corps Office of Inspector General                                        19
As part of this ongoing investigation, the OIG visited a Peace Corps post in eastern
Asia to determine whether fraud or employee misconduct was associated with
the sale of four vehicles. Post and embassy staff involved with the vehicle sales
were interviewed by the OIG and pertinent documents were reviewed during this
investigation. The investigation determined that there were external factors affecting
the sales price of the vehicles. Specifically, the sales prices did not include the local
duty tax that was due when the vehicles were sold to buyers outside of the diplomatic
community. This additional cost to the buyer was not captured in vehicle sales data
collected by the Peace Corps.

In addition, the OIG review of vehicle sale records at a Peace Corps post in the
Pacific region disclosed that a Peace Corps staff member purchased a vehicle at a
post auction for an amount substantially lower than its fair market value. During
interviews, the investigation determined that the staff member had submitted two
different bids. He failed to honor the higher bid and ultimately purchased the
vehicle with the lower bid. Post records were deficient and there was no record of
his higher bid. The staff member subsequently sold the vehicle for over twice the
amount he paid the Peace Corps. The OIG made several operational improvement
suggestions concerning this matter.

Recent practices noted by the OIG that may require further scrutiny include: Peace
Corps employees or contracted staff entering the highest bid, numerous bids placed
by the same source, no minimum bid levels established to ensure a fair market value;
posts not keeping adequate records on auction procedures, bids, and awards; and
little or no requirements for oversight by Peace Corps headquarters.

                                      Peer Review

During this reporting period we initiated a qualitative assessment review of the
Library of Congress’ (LOC) Office of Inspector General, Office of Investigations.
This review is being conducted using the standards and guidance developed by the
Council of the Inspectors General on Integrity and Efficiency (CIGIE) Investigations
Committee. As noted in the objectives of the Quality Assessment Review (QAR)
guidelines, the assessment is intended to be constructive rather than negative or
punitive.

The overall objective of a CIGIE QAR, or peer review, is to determine whether
internal control systems are in place and operating effectively to provide reasonable
assurance that professional investigative standards are being followed. As such,
the review attempted to: (1) determine the adequacy of management controls
used for measuring, reporting, and monitoring operations, (2) determine whether
investigations conducted during fiscal year (FY) 2009 were timely and efficient, (3)
evaluate compliance with the quality standards as outlined by the President’s Council
on Integrity and Efficiency/Executive Council on Integrity and Efficiency (PCIE/
ECIE) in the Quality Standards for Investigations, and (4) determine whether reports


20               Semiannual Report to Congress   April 1, 2009 - September 30, 2009
of investigation thoroughly address all relevant aspects of investigations and are
accurate, balanced, complete, objective, and free of opinion.

                               Crimes Against Volunteers

                 Judicial Disposition of Legacy Cases Involving
                           Crimes Against Volunteers

•   We previously reported that a Volunteer serving in Central Asia had advised the
    OIG that she been raped and robbed by multiple host country males over two
    nights. The male suspects were minors, as young as 15 years old, and alcohol
    was involved. The case was forwarded to the local prosecutor’s office and charges
    were filed against the six host country national males. The charges were initially
    declined because the victim was not able to be physically present. However, a
    trial ensued, and the six subjects received various convictions. One subject was
    convicted of group rape and robbery and sentenced for five years and 10 days. A
    second subject was convicted of group rape and theft and sentenced for six years
    and one month. Three subjects were convicted of group theft; one received a
    sentence of four years and two received sentences of three years. The sixth subject
    was convicted of not reporting the crime and was fined approximately $300.

•   In Central America, an assailant attempted to rape a Volunteer. The Volunteer
    bit the assailant and he bled on her shirt. A host country national male was
    apprehended. Lab analysis subsequently determined with 99.99% certainty that
    the suspect in custody’s blood was on the Volunteer’s shirt. The OIG coordinated
    with host country law enforcement officials and provided an attorney to represent
    the Volunteer in local court. The suspect was found guilty and sentenced to four
    years in prison.

•   In a Caribbean country, a Volunteer had his wallet stolen. The Volunteer ran
    after a host country male to recover his wallet. The police were called, and they
    arrested a suspect. The Volunteer was able to identify the suspect. The OIG
    coordinated with local law enforcement and assisted with the trial. The suspect
    was found guilty of attempted robbery and sentenced to nine months in jail.

             Active Case Involving Crimes Against a Volunteers

•   As previously reported, a Volunteer serving in the Caribbean was burglarized and
    brutally assaulted while her assailant attempted to rape her. A host country male
    was apprehended and placed in local custody. The OIG coordinated with the
    Regional Security Officer, host country police, and prosecutor. The OIG assisted
    with photo identification, physical line-up, and transporting evidence to the
    Federal Bureau of Investigation laboratory. The OIG accompanied the Volunteer
    victim to the pre-trial hearing. On Sept 22, 2009, the suspect pled guilty.
    Sentencing is scheduled for October 2009.

Peace Corps Office of Inspector General                                       21
              Title 18 Criminal and Other Investigations

              Active Title 18 Criminal and Other Investigations

•    The agency requested that the OIG investigate the improper release of
     confidential information by a Peace Corps staff member. A Volunteer had made
     a complaint against local Peace Corps personal services contractor. The OIG
     investigated the flow and dissemination of the complaint and interviewed staff
     at the post. The investigation confirmed that a Peace Corps staff member had
     released confidential information to another Peace Corps staff member and a
     contractor.

     The OIG investigation disclosed that there was a direct link between the
     leaked information and a local criminal investigation. Three former Peace
     Corps staff members are currently in custody in connection with a crime. The
     OIG continues to aid ongoing investigative efforts with U.S. and local law
     enforcement agencies and is preparing search warrants to obtain additional
     evidence.

•    The OIG received an allegation that the former country director at a Peace
     Corps post in a South American country improperly profited from his position
     and essentially received a new vehicle at a reduced rate via agency vehicle
     purchases with a local dealership. The former country director also caused the
     U.S. Embassy to unknowingly provide false statements to the host country
     government. This investigation is ongoing. The OIG has presented this case to
     the U.S. Attorney’s office for consideration of prosecution.


           Closed Title 18 Criminal and Other Investigations

The OIG opened an investigation upon receipt of information indicating that a
former Peace Corps headquarters employee failed to return Peace Corps property
prior to his departure from the agency. The investigation disclosed that the
former employee failed to return his Peace Corps issued Blackberry, Peace Corps
identification badge, and 24-hour building access key.

Prior to leaving the agency, an employee must check out with several offices
and obtain signatures of staff indicating that he has received briefings, returned
equipment, travel and phone cards, etc. The investigation disclosed that while
the former employee had a completed check out form in his personnel file, several
signatures on the form had been forged, including the signature of the Office
of Chief Information Officer employee purporting to attest to the return of the
former employee’s Blackberry. T-Mobile records obtained during the course of the
investigation indicated that over 141 text messages and calls were placed on the
former employee’s Blackberry after his departure.



22               Semiannual Report to Congress   April 1, 2009 - September 30, 2009
This matter was reported to the Computer Emergency Readiness Team at the U.S.
Department of Homeland Security. The OIG also referred it to the U.S. Attorney’s
Office for prosecution. Although the Assistant U.S. Attorney did not accept the
case for prosecution, she did contact the former employee’s attorney and reached
an agreement in which the former employee would return all Peace Corps property.
Subsequently, all the items were returned.

    Additional Closed Title 18 Criminal and Other Investigations

•   A Volunteer serving in Eastern Europe reported that she had been sexually
    assaulted by a fellow Volunteer. The victim came to Washington, D.C. for
    medical care and consultation with the OIG. The OIG investigated the incident
    at the post and obtained witness statements which supported the victim’s
    allegations; however, the victim declined to engage in legal action against
    her perpetrator. The perpetrator resigned from the Peace Corps in lieu of
    administrative separation. The Volunteer victim chose not to return to the post
    to complete her service.

•   A Volunteer serving in Africa reported that she had been sexually assaulted by a
    fellow Volunteer. When questioned by the OIG, she declined to initiate legal
    action against the perpetrator. The OIG investigated the incident and obtained
    victim, perpetrator, and witness statements, which generally supported the
    victim’s allegations. The alleged perpetrator resigned from the Peace Corps in lieu
    of administrative separation.

•   The OIG received allegations that a Volunteer serving at a South American
    post may have violated the PROTECT Act, and been sexually involved with a
    host country minor. The Volunteer was brought to Washington, D.C. while
    the OIG conducted an investigation at the post. OIG agents obtained witness
    statements and coordinated investigated efforts with U.S. Immigration and
    Customs Enforcement. The investigation did not disclose any evidence that the
    Volunteer had sexually abused the minor. However, the OIG investigation did
    reveal multiple violations of Peace Corps policies and a situation that exposed the
    Volunteer and agency to potential risk. After questioning, the Volunteer resigned
    from the Peace Corps in lieu of administrative separation.

•   The OIG previously reported that a Volunteer serving in the Caribbean
    was allowed to resign in lieu of termination for alleged improprieties with
    children under his care. During this reporting period, the OIG developed new
    information that the individual is currently teaching underprivileged children
    in the U.S. He also has become the foster parent of two children. The OIG is
    coordinating with local law enforcement and child protective services concerning
    this matter.




Peace Corps Office of Inspector General                                     23
          TABLE 1: List of Reports : Audits and Evaluations




                                   Overseas Post Audits

Peace Corps/Morocco                                                                          Audit
Peace Corps/Nicaragua                                                                        Audit
Peace Corps/Senegal                                                                Follow-up Audit


                        Overseas Post Program Evaluations

Peace Corps/Belize                                                            Program Evaluation
Peace Corps/Ghana                                                             Program Evaluation
Peace Corps/Jordan                                                            Program Evaluation




     24              Semiannual Report to Congress   April 1, 2009 - September 30, 2009
        TABLE 2: Reports Issued with Questioned Costs or
                    Funds Put to Better Use




                                              Value               Note

Audit of
Peace Corps/Nicaragua 		 $	                  15,226.21   	         1




Total of Reports Issued with Costs   	
Questioned or Funds Put to Better Use			$	 15,226.21


Note:
1. Sale of excess property.




   Peace Corps Office of Inspector General                   25
               TABLE 3: Status of Reports Issued by
                  OIG with Costs Questioned




                                                                Number of              Value
                                                                		Reports

A. Reports issued prior to this period
     For which no management decision had been	
     made on any issue	                                                0
     For which some decisions had been made
     on some issues	                                                   0

B. Reports issued during the period	                                   0     	

Total of Categories A and B	                                           0    	

C.	For which final management decisions were made	
	 during this period	                                                  0    	

D.	For which no management decisions were made
	 during the period	                                                   0

E.	 For which management decisions were made
    on some issues during the period	                                  0	

TOTAL OF CATEGORIES C, D, and E	                                       0    	




26              Semiannual Report to Congress     April 1, 2009 - September 30, 2009
                   TABLE 4: Status of Reports Issued by
                    OIG with Funds Put to Better Use



                                                 	
                                                     Number of        Value
                                                     Reports

A. Reports issued prior to this period	
     For which no management decision had been
     made on any issue	                                  0
     For which some decisions had been made
     on some issues		0                                                   0

B. Reports issued during the period	                      1 		 $15,226.21

Total of Categories A and B	                              1		 $15,226.21

C. For which final management decisions were made
  	during this period 	                                  1	         $15,226.21

D.	For which no management decisions were made
 	 during the period	                                    0               0

E. For which management decisions were made
   on some issues during the period	                     0               0

TOTAL OF CATEGORIES C, D, and E	                          1	        $15,226.21




 Peace Corps Office of Inspector General                       27
         TABLE 5: Reports with Recommendations on which Corrective
                       Action has not been Completed

                    Recommendations open 60 days or more
Report                          				Date Issued                                     Number of Open
                               											                                           Recommendations

PC/Senegal: Audit	                                               7/24/2009	                     1
PC/Nicaragua: Audit			                                           7/29/2009 	                    2


                   Recommendations open 120 days or more
Report                                           	               Date Issued 	 Number of Open
                                                                               Recommendations

None


                   Recommendations open 180 days or more
Report                              	                            Date Issued      	 Number of Open
                                                       	                             	Recommendations

Travel Policies and Procedures: Audit         	  6/27/2006                                  	3
PC/Eastern Caribbean: Audit			12/20/2007	                                                    4
Medical Clearance System: Evaluation	            3/31/2008	                                  9
Volunteer Safety and Security: Evaluation	       8/28/2008	                                  6
PC/El Salvador: Audit	                           9/22/2008	                                  3
FY 08 Financial Statement Audit			              11/13/2008 	                                17
Federal Information Security Management Act 	   11/15/2008	                                 12
PC/Dominican Republic: Evaluation	              12/17/2008	                                  1
PC/Guyana: Evaluation	                           1/29/2009	                                  4
PC/Uganda:Audit	                                 3/31/2009	                                  2
Peace Corps Purchase Card Program:Audit	         3/31/2009	                                  8
PC/Guinea: Audit	                                3/31/2009	                                  2
	




            28         Semiannual Report to Congress       April 1, 2009 - September 30, 2009
                 TABLE 6: Summary of Investigative Activity


Cases                                                               	NUMBER
Cases opened as of 4/1/2009                                           	 57
Cases opened during 4/1/2009 - 9/30/2009                               	 6
Cases closed that were previously opened                              	 53
Cases opened and closed during 4/1/2009 - 9/30/2009                  	 3
Total open cases as of 9/30/2009                                     	 34
Referrals for Department of Justice Prosecution                        	 2
Referrals for Agency Administration Action                             	 3
Referrals to Others Agency                      	                        0
Domestic Court Actions                                          	   NUMBER
Trial(s) Pending                            	                           0
Convictions                      	                                      0
Acquittals 	                                                            0
Judgments 	                                                             0
Fines/Restitutions 	                                                    0

Overseas Court Actions                                      	       NUMBER      VALUE   	

Ongoing Prosecutions                	               	                    4		
Convictions 	                                                            9
Acquittals 	                                                             0
Judgments            	                                                   0
Fines/Restitutions                      	                                0

Monetary Results                                                    	 NUMBER

Annual Savings 	                                                         0		
Recoveries/Restitution                          	                        1 		   $300
Cost Avoidance                  	                                        0		

ADMINIstrative Actions	NUMBER
Employees (Resignations and Terminations)               	               4
Other Employee Actions          	                                       0
Other Persons/Businesses     	                                          0




   Peace Corps Office of Inspector General                                       29
  TABLE 7: Summary of Hotline and Other Complaints




Complaints Received                                                                 32
Complaints Closed                                                                   28
Preliminary Inquiry                                                                 10
Resulted in Investigations                                                           4
Resulted in Audits                                                                   0
Resulted in Evaluations                                                              0
Referred to Agency Management                                                        0
Referred to Other Agency                                                             0
No Action Needed                                                                    18




30             Semiannual Report to Congress   April 1, 2009 - September 30, 2009
     TABLE 8: References to Reporting Requirements of
                the Inspector General Act


The Inspector General Act of 1978, as amended, specifies reporting requirements for
Semiannual Reports to Congress. The requirements are listed below and indexed to the
applicable page.

Act Reference         Reporting Requirements                                            Page

Section 4(a)(2)       Review of legislation and regulations                            None
Section 5(a)(1)       Significant problems, abuses, and deficiencies                   5 – 16
Section 5(a)(2)       Significant recommendations for corrective actions               5 – 16
Section 5(a)(3)       Prior significant recommendations on which corrective action
                      has not been completed                                             28
Section 5(a)(4)       Matters referred to prosecuting authorities                      21 – 24
Section 5(a)(5)       Summary of instances where information was refused                None
Section 5(a)(6)       List of audit reports, including evaluations, inspections, and
                      reviews                                                            25
Section 5(a)(7)       Summary of significant reports                                   9 – 16
Section 5(a)(8)       Statistical table - questioned costs                               26
Section 5(a)(9)       Statistical table - funds put to better use                        27
Section 5(a)(10)      Summary of previous audit reports without management
                      decisions                                                        None
Section 5(a)(11)      Significant revised management decisions                         None
Section 5(a)(12)      Significant management decisions with which the Inspector
                      General disagrees                                                None
Section 5(a)(13)      Information under Federal Financial Management
                      Improvement Act of 1996                                          None




   Peace Corps Office of Inspector General                                        31
Help promote the integrity, efficiency, and effectiveness of the Peace Corps.
Anyone knowing of wasteful practices, abuse, mismanagement, fraud, or
unlawful activity involving Peace Corps program or personnel should call or
write the Office of Inspector General.

Call:
Main Office                  	 202. 692.2900
Hotline                     	 800.233.5874


Write:
Peace Corps
Attn: Inspector General
1111 - 20th St., N.W.
Washington, DC 20526

Or

Peace Corps
Attn: Inspector General
P.O. Box 57129
Washington, DC 20037-7129

Email Hotline:                                 OIG@peacecorps.gov




     Information received is held in confidence to the maximum feasible extent.
Peace Corps
Office of Inspector General
Paul D. Coverdell Peace Corps Headquarters
1111 - 20th St., NW
Washington, DC 20526
